<html>
<title> - HORN OF AFRICA: CURRENT CONDITIONS AND U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            HORN OF AFRICA:
                   CURRENT CONDITIONS AND U.S. POLICY

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

                           Serial No. 111-108

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
56-997                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ted Dagne, Specialist in African Affairs, Congressional 
  Research Service...............................................    11
Ms. Leslie Lefkow, Senior Researcher, Africa Division, Human 
  Rights Watch...................................................    28
Ms. Sadia Ali Aden, Human Rights Advocate and Freelance Writer...    41
Kenneth John Menkhaus, Ph.D., Professor of Political Science, 
  Department of Political Science, Davidson College..............    49
Mr. Pagan Amum Okiech, Secretary General, The Sudan People's 
  Liberation Movement............................................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey, and Chairman, Subcommittee on Africa 
  and Global Health: Prepared statement..........................     4
Mr. Ted Dagne: Prepared statement................................    17
Ms. Leslie Lefkow: Prepared statement............................    30
Ms. Sadia Ali Aden: Prepared statement...........................    44
Kenneth John Menkhaus, Ph.D.: Prepared statement.................    52
Mr. Pagan Amum Okiech: Prepared statement........................    59

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79


           HORN OF AFRICA: CURRENT CONDITIONS AND U.S. POLICY

                              ----------                              


                        THURSDAY, JUNE 17, 2010

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m. in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne, 
(chairman of the subcommittee) presiding.
    Mr. Payne. The hearing will come to order. Good morning and 
welcome. I have convened this important hearing, ``The Horn of 
Africa: Current Conditions and U.S. Policy,'' to discuss the 
region of Africa that stays in the headlines perhaps more than 
any other region on the continent but is yet so misunderstood. 
This hearing comes on the heels of a similar one on the Great 
Lakes Region that we had recently. The point of this type of 
approach is to broaden the focus from particular countries to a 
regional outlook.
    The Subcommittee on Africa will continue to have hearings 
dealing with other regions in Africa because it is so important 
that regional integration and cooperation is occuring to 
determine the future of Africa. Some of you may wonder why a 
discussion about the Horn of Africa would include the Secretary 
General of the Sudan People's Liberation Movement. Sudan abuts 
the Horn and is both impacted and impacts on what happens 
there. It is a key country which borders nine countries and 
therefore very essential.
    We cannot and must not take a myopic view when we approach 
these challenges in the African countries and regions. With 
that view in mind, the inclusion of a witness from Sudan makes 
absolute sense. As you will hear from our witnesses, the Horn 
of Africa--named for the shape the peninsula takes as it juts 
out into the Arabian Sea--has been marred by civil wars, 
internal political turmoil, inter-state wars, famine, man-made 
humanitarian disasters.
    It is a focal point for the U.S. foreign policy mainly for 
our counterterrorism--as it is highly vulnerable to terrorist 
attacks and is considered a safe haven for international 
terrorist groups as well as for humanitarian concern. Ethiopia 
and Somalia fought three major wars over the past several 
decades, while Eritrea and Ethiopia fought a bloody war from 
1998 to 2000 in which over 100,000 people were killed and many 
more displaced. The results of the Hague Decision and the 
efforts of the Hague decision and the efforts of the Eritrean-
Ethiopian Border Commission remains unimplemented, and the two 
countries have yet to move forward on the issue of Badme, 
recognized as part of Eritrea by the Boundary Commission.
    Prime Minister Meles of Ethiopia rules with an iron fist, 
overseeing the violence of the 2005 elections after which 
nearly 200 innocent people were killed by Ethiopian 
sharpshooters and countless people were imprisoned. Last month 
elections were held. Although they were relatively peaceful, 
they did not meet international standards, according to the 
U.S. and the EU's commissions. Harassment, detention, and 
killings of opposition members preceded the elections. Also, 
changes in laws pertaining to NGOs must have been absent of 
outside support and also weakened opposition groups. Opposition 
leader, Ms. Birtukan Mideksa remains in prison and according to 
Meles will never be released.
    Somalia, one of the world's poorest nations, has been 
marred by fractional fighting and humanitarian disasters since 
the collapse of the central government in 1991. Famine and 
lawlessness ensued and an estimate 300,000 Somalis died of 
starvation during the civil war in the early 1990s.
    A peace agreement was reached in 2004, and a Transitional 
Federal Government was established following a long process in 
Nairobi. However, Ethiopia invaded in 2006 tacitly encouraged 
by the former U.S. administration and ousted the Unions of 
Islamic Courts (ICU). The relative calm that followed the 
Islamic Courts rule ended abruptly; open conflict erupted in 
Mogadishu and beyond, and the humanitarian crisis exploded.
    The TFG is now led by President Sheikh Sharif Sheikh Ahmed, 
and he faces a major challenge by the terrorist group Al-
Shabaab. I commend the administration for the support it has 
provided the TFG, and I urge it to increase that support to 
defeat Al-Shabaab and restore peace.
    On the humanitarian side, I am outraged by the continued 
suffering of the Somali people. The World Food Program's 
suspension of activities in January in the south and central 
regions of Somalia has had a devastating effect on the 
vulnerable populations. We must do more to protect and provide 
support to the Somali people.
    In the North, the people of Somaliland will go to the polls 
on June 26. I hope the elections are fair and free. In a region 
that has suffered from wars and anarchy, Somaliland has 
consistently maintained relative peace and stability. This 
upcoming election provides a positive milestone for the future 
of the region and Somaliland.
    One of the root causes of political instability in the Horn 
is the underlying impact of the unresolved Eritrea-Ethiopia 
stalemate. These two countries have not had diplomatic 
relations with each other for 11 years, and the two have 
resorted to pursuing a proxy agenda in Somalia rather than 
resolve their differences.
    Eritrea has become increasingly isolated. However, over the 
past several years, President Isaias has stated that his 
government is ready to constructively engage Washington on a 
wide range of issues, including cooperation on the war on 
terror. Some opportunities have been missed by the U.S., but 
President Isaias must also do more to show he is serious about 
the future.
    Djibouti serves as the host to the U.S. Combined Joint Task 
Force Horn of Africa, a staging area in the war on terror. 
Djibouti is a strong partner. However, U.S. assistance has been 
on the decline. I hope to see this change. I also hope recent 
developments in the border dispute between Djibouti and Eritrea 
bear fruit where recently they have come to an accommodation, 
and I commend both countries for that.
    In Sudan, the U.S. is committed to seeing the referendum 
take place on January 9, 2011, and must respect the will of the 
Sudanese people. We must also do more to help prepare the South 
as the referendum approaches and for both possible outcomes.
    Finally, a word on Kenya: On August 4, the people of Kenya 
will vote on a referendum to approve or reject the draft 
Constitution. Outside forces have been waging a negative 
campaign over the past several months.
    The new Constitution includes sweeping and much needed 
reforms, as called for following the deadly post-election 
violence in 2008. The process must be allowed to move forward 
without outside interferences. We cannot go into the 2012 
elections without having a Constitution that is approved by the 
majority of the people of Kenya, and absent that or anything to 
deter that could once again lead to the horrible bloody deaths 
which followed the past national elections.
    With that, let me turn to the ranking member for his 
opening statement. Mr. Smith?
    [The prepared statement of Mr. Payne follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for calling this very important hearing. The peoples living in 
the Horn of Africa confront some of the most repressive 
governments in the world, and for many of them, the conditions 
of daily life constitute a humanitarian disaster. In southern 
and central Somalia, which has lacked a functioning government 
since 1991, most of the people live in areas controlled by Al-
Shabaab, a foreign terrorist organization affiliated with al-
Qaeda.
    We can hardly imagine the injustices and hardship of their 
lives in an ungoverned land that has become a haven for 
terrorists and pirates. It seems that the situation has only 
grown worse since last June when Chairman Payne last called a 
hearing to examine the situation in Somalia, and certainly it 
has grown worse since 2006 when I, as chairman of this 
committee, called a hearing on Somalia. I understand the 
administration is reviewing its policy toward Somalia. 
Certainly, it is time to do that, and I look forward to hearing 
and learning about the options in this very, very sad and 
tragic situation.
    As to Ethiopia, Mr. Chairman, in recent years our 
Government has officially recognized the grave human rights 
abuses of the Meles government. But both under President Bush 
and now under President Obama, our diplomacy has given Meles a 
free pass. I would like to read from the summary of the State 
Department's 2009 Country Report on Human Rights Practices on 
Ethiopia:

          ``Unlawful killings, torture, beating, abuse and 
        mistreatment of detainees and opposition supporters by 
        security forces often acting with evident impunity; 
        poor prison conditions; arbitrary arrest and detention, 
        particularly of suspected sympathizers or members of 
        the opposition or insurgent groups; police, 
        administrative and judicial corruption; detention 
        without charge and lengthy pretrial detention; 
        infringement on citizens' privacy rights, including 
        illegal searches; use of excessive force by security 
        services in internal conflict and counterinsurgency 
        operations; . . . arrest, detention and harassment of 
        journalists; restrictions on freedom of assembly and 
        association. . . .''

    The rest of the report continues that very significant 
indictment of the human rights policies of the Meles 
government. You mentioned the killings that occurred, the 
slaughter, in 2005. Well, right after that occurred, I traveled 
to Ethiopia. In Addis I met with President Meles, who was 
absolutely dismissive and really held in contempt the 
international community's concern and my concern regarding 
those killings where security forces gunned down people in the 
street who were protesting the corrupt election and the process 
that was followed.
    In regard to the May 23 elections in Ethiopia and the weeks 
and months prior to the elections, it is well established that 
the Meles government suppressed the democratic opposition. 
Human Rights Watch concluded that

        ``the Ethiopian Government is waging a coordinated and 
        sustained attack on political opponents, journalists 
        and rights activists ahead of the May 2010 elections. 
        Opposition candidates and activists including Birtukan 
        Mideksa were assaulted or detained by police, and many 
        opposition groups were prevented from opening local 
        offices.''

    In December of '09, the most prominent opposition newspaper 
was closed, and in April 2010, the government began jamming 
Voice of America broadcasts, so I want to thank other members, 
including my colleague, Mr. Royce, who joined me in a letter to 
Assistant Secretary Carson calling on our Government to send a 
strong unequivocal message to the Ethiopian Government that its 
conduct during and after these elections will be a very 
important factor in the development of U.S.-Ethiopian relations
    Since the election was in fact a sham, what is called for 
are not a few soft post-election words but a fundamental 
reorientation of our policy supporting not Meles, but the 
aspirations of the people of Ethiopia to live in freedom and 
dignity. Eritrea is a country that should receive much more 
attention than it does from our Government and from the 
international media. Five million people suffer under that 
government which Freedom House lists as among the nine 
countries it judges to have the worst of the worst humans 
rights conditions in the world.
    Somalia is also on the worst of the worst list, but of 
course, there was no government responsible for the tragic 
state of that country. Since there was strong evidence that the 
Eritrean Government supplies Al-Shabaab and similar groups in 
Somalia, it seems our Government should classify Eritrea as a 
state sponsor of terrorism, and I look forward to a discussion 
on that point. Mr. Chairman, I look forward to hearing our 
witnesses. I am glad we will be focusing again as we do almost 
every time this subcommittee convenes, and that is on the 
situation in Sudan.
    Obviously, our concerns are absolutely profound with the 
upcoming elections from the plebiscite that will occur, and as 
we have had witnesses tell us again and again, the huge caches 
and munitions and arms that are being smuggled into Southern 
Sudan raises very, very ominous concerns about what is 
intended, in the disruptions and the slaughter, the killings 
that might occur if that situation is not defused and 
mitigated.
    Finally, on Kenya, you did make mention of outside sources 
trying to influence the outcome of the Kenyan Constitution. I 
would point out that the Kenyan Constitution includes language 
that was crafted by a panel of experts, apparently with an 
enormous amount of input from outside of Kenya, that radically 
rewrites their Constitution with regards to abortion. Virtually 
all of the churches in Kenya--the Catholic Church, the Anglican 
Church, the National Council of Churches' representatives and 
Evangelicals--are against the Constitution because it allows 
abortion on demand, which has not happened.
    Kenya's population and the polling that has been done shows 
60 to 70 percent of the people in Kenya believe in the sanctity 
of unborn children and reject the violence of abortion whether 
it be chemical poisoning or dismemberment of a child, and that 
is the reason why there is such angst regarding this 
Constitution. Recently, a group of ``no'' campaigners, mostly 
under church auspices, were attacked by bombs just within the 
last few days. A half a dozen died, and maybe the number is 
higher by now. Approximately 70 were wounded.
    The source of that is not known, but it does raise very 
serious concerns about the attempts to disrupt the ``no'' 
campaign. The Constitution ought to be, in my opinion, the pro-
abortion language excised out of it. If that is going to be 
discussed, let it be done by the legislature, but not through a 
Constitution reform, which contains a lot of other things that 
ought to be put into place. Nobody disputes that, so it is not 
outside forces I would respectfully say. It is internal. The 
people of Kenya, especially the faith community, is 
diametrically opposed to the killing of Kenyan babies and the 
wounding of their mothers by way of abortion.
    Let me also say that the Obama administration has provided 
some $11 million, and we do not know to whom and how that money 
has been used. It may be higher. I have been joined by Ileana 
Ros-Lehtinen and Darrell Issa of the Government Reform 
Committee. We have asked for a full Inspectors General 
investigation and a General Accountability Office investigation 
into what the money has been used for because if we are backing 
legislation that radically alters the Constitution, which then 
radically alters the pro-life policy of Kenya, that is in 
violation of United States law.
    The Siljander Amendment makes it absolutely clear that the 
U.S. Government cannot lobby either for or against abortion, 
and if we are lobbying for a vehicle, a bill, a Constitution 
reform proposal that radically changes it, our Government will 
be in violation of our own U.S. law. So the ``outside forces'' 
are really the inside forces. The outside forces are really the 
U.S. Government, we believe, and foreign non-governmental 
organizations, including at least 20 pro-abortion, non-
governmental organizations heavily backed by U.S. funding that 
are trying to promote the ``yes'' campaign.
    I hope that they go back to the drawing board and quickly 
excise that abortion-related language and bring back a 
Constitution reform that the country can rally around because 
they certainly do need a Constitution. I thank you, Mr. 
Chairman.
    Mr. Payne. Thank you very much. We will begin with our 
witnesses. Excuse me? Yes, Mr. Fortenberry. I didn't see you 
slip in. Thank you. Sorry. I yield you as much time as you may 
consume.
    Mr. Fortenberry. Thank you, Mr. Chairman. I appreciate your 
willingness to hold this hearing today, and I appreciate the 
opportunity to dialogue with our distinguished witnesses and 
look forward to your scholarly insights on the developing in 
the Horn of Africa, but, Mr. Chairman, I would like to focus my 
comments on Somalia.
    As I see it, Somalia is hanging by a thread, and the United 
States is in the unenviable position of reconciling two complex 
yet fundamental policy objectives brought into stark relief by 
the release this week of the Department of State's Trafficking 
and Persons Report, which noted that the Somali Government is 
using child soldiers as young as 9 years of age in its fight 
against militants. There is a harsh dichotomy that presents an 
affront to our principles and moral sensibilities.
    On the one hand, we must work to help prevent spiraling 
instability and promote a semblance of just order in the midst 
of a highly volatile security situation, and in tandem we are 
obligated by law to combat the gruesome crime of child 
conscription, a most serious human rights violation especially 
prevalent in the world's ungoverned spaces where children can 
easily fall victim to coercion and abhorrent abuse. As one of 
the authors of the Child Soldiers Prevention Act, which was 
incorporated into the William Wilberforce Trafficking Victims 
Prevention Act of 2008, I am deeply concerned about this 
situation, and we must have an urgent dialogue about ending 
this pernicious human rights abuse.
    Given that Somalia's defense, culture and higher education 
ministers recently quit their post in frustration over the 
Transitional Federal Government's lack of progress in bringing 
order to that country, we need to have a clear understanding of 
the current situation as well as the United States policy 
options. We must also discuss how the U.S. can best use its 
limited resources to compel the responsibility communities of 
the nations to strengthen their efforts to combat Somalia's 
rapid evolution into a barbarous and chaotic safe haven for 
terrorists.
    I would welcome hearing from our panelists on the way 
forward for U.S. security interest as well as human rights 
policy in Somalia. How do we move forward most effectively to 
both support stability and justice in such a chaotic and 
unpredictable environment? Mr. Chairman, I would like to ask 
you to convene a followup hearing on the specific situation in 
Somalia if you would give that consideration, and I think we 
need to explore this critical issue with the administration as 
well. Thank you.
    Mr. Payne. Thank you very much. I agree. I know we are all 
opposed to the use of child soldiers, and if that is indeed 
occurring with the TFG, we certainly should have that looked 
into. We have also been joined by Dr. Boozman. I yield to him.
    Mr. Boozman. Thank you, Mr. Chairman. I don't have a 
comment. I just appreciate the hearing.
    Mr. Payne. Thank you very much. Now we will introduce our 
witnesses. First, we will hear from Ted Dagne. Mr. Dagne is a 
specialist in Africa Affairs at the Foreign Affairs Defense and 
Trade Division of the Congressional Research Service (CRS) and 
has offered his expertise to the CRS since 1989. Between his 
work at CRS, Mr. Dagne served as professional staff member of 
the House Foreign Affairs Committee, Subcommittee on Africa 
under chairmanship of Congressman Henry Johnson from 1993 to 
1995.
    From 1999 to 2000, Mr. Dagne served as a special advisor to 
President Clinton's Special Envoy for Sudan and to Assistant 
Secretary of State for African Affairs, Dr. Susan Rice, our 
U.S. Ambassador to the U.N. Over the past 20 years, Mr. Dagne 
has written over 2,000 major studies on Africa and has co-
authored two books on Somalia and Africa and the war on terror. 
He also serves as the associate editor of the Mediterranean 
Quarterly journal. Mr. Dagne is a graduate of Howard University 
here in Washington, DC.
    Next, we will hear from Ms. Leslie Lefkow, who currently 
serves as senior researcher and Horn of Africa team leader in 
the African Division at Human Rights Watch. While at Human 
Rights Watch, Ms. Lefkow has used her specialty in abuses in 
armed conflict and humanitarian crisis to conduct research in 
Sudan, Cote d'Ivoire, Liberia and Somalia. Before joining Human 
Rights Watch, Ms. Lefkow worked for humanitarian organizations 
in Sudan, the Democrat Republic of the Congo and Sierra Leone. 
She holds graduate degrees from the University of Columbia in 
law and Bryn Mawr College.
    Following Ms. Lefkow is Ms. Sadia Ali Aden. Ms. Ali Aden is 
a human rights advocate, freelance writer and co-founder of the 
Adar Foundation, Somali Diaspora Youth and the founder of the 
Diaspora Voice. Ms. Ali Aden's articles have been published in 
various publications, including foreign policy forum, 
IslamOnline, alJazeera Magazine and the World Press. She has 
appeared for a number of interviews on NPR and BBC and other 
media outlets. Notably, Ms. Ali Aden is also finalizing her 
studies in medicine. Congratulations.
    Next, we have Dr. Ken Menkhaus. Dr. Menkhaus is professor 
of political science at Davidson College and joined the 
Davidson faculty in 1991 with his specialization, which 
includes development, conflict and peace operations in the Horn 
of Africa. Dr. Menkhaus served as a special political advisor 
to the United Nations operation in Somalia from 1993 and 1994 
and as a visiting civilian professor at the U.S. Army 
Peacekeeping Institute from 1994 to 1995.
    Dr. Menkhaus has authored over 50 articles and books, has 
made many interviews, and has appeared on media outlets 
including BBC, CNN and the Voice of America. Dr. Menkhaus holds 
a Ph.D. in international studies from the University of South 
Carolina and received a Fulbright Scholarship during his 
studies.
    Lastly, we have Mr. Pagan Amum Okiech, Secretary General of 
the Sudan People's Liberation Movement. Dr. Okiech was elected 
to SPLM Secretary General in May 2008 and has served as a 
member of the SPLM Political Bureau and SPLM National 
Liberation Council.
    Mr. Amum Okiech has an extensive career with SPLM and the 
Sudanese Government, including his contributions to the 
formation of the Southern Sudan Liberation Front back in 1982--
one of the original members. Prior to his position as Secretary 
General, Mr. Amum Okiech was appointed as Minister for Cabinet 
Affairs in the Government of National Unity from 2007 to 2008. 
He also completed an appointment as Secretary General of the 
SPLM and member of both the Interim Political Bureau and the 
International Committee in 2006.
    In 2005 during the pre-interim period of the CPA, Mr. Amum 
Okiech served as the appointed caretaker supervisor for Lakes 
States by the late chairman Dr. John Garang of Sudan. We have 
been joined by three other members, and I might ask, Ms. 
Watson, would you like to make an opening statement, or, Ms. 
Lee or Ms. Woolsey? Of course, we are moving behind, but if you 
would like to make a statement--okay. Great. All right. Go 
ahead.
    Ms. Woolsey. Excuse me. I will just try to incorporate this 
with my questions.
    Mr. Payne. Excellent. Thank you very much. We will start 
with our first witness, Mr. Dagne.

  STATEMENT OF MR. TED DAGNE, SPECIALIST IN AFRICAN AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Dagne. Thank you, Chairman Payne, Ranking Member Smith 
and members of the subcommittee for the opportunity to testify 
before this subcommittee. The Horn of Africa region is by far 
the most unstable region in sub-Saharan Africa today. Millions 
of people have died and many more have been displaced or forced 
into exile. One does not have to look in a refugee camp in 
Kenya to find an Ethiopian, Eritrean or a Somali. Hundreds of 
thousands of people from the Horn of Africa region are now 
second-generation American citizens. Some have returned to help 
their fellow brothers and sisters as humanitarian workers, 
human rights advocates and journalists. Many have lost their 
lives.
    Ibrahim Addou, an American Somali, is one such person. In 
December 2009, he was killed in a suicide attack in Mogadishu 
along with over a dozen students, teachers and several 
ministers. A number of Somali journalists covering the crisis 
in Somalia have been assassinated by insurgents. Dozens of 
humanitarian and human rights workers have been killed or 
injured. I am making this point because what has gotten the 
attention of the media is the dozen or so people who went back 
to kill and maim their own people and not those who died while 
helping others.
    The Horn of Africa region has been marred by civil war, 
internal political turmoil, interstate war, famine and man-made 
humanitarian crisis. The region has also emerged as a place 
highly vulnerable to terrorist attacks. The suffering in the 
Horn of Africa is largely man made and some of the conflicts 
were triggered in part because of failed leadership. Somalia 
remains in a state of anarchy despite a peace agreement signed 
in 2004.
    Ethiopia's intervention in December 2006 made Somalia more 
unstable than it was during the 6 months the Islamic Courts was 
in power. What is forgotten is in those 2 years' period, more 
than 22,000 people, most of whom innocent civilians, were 
killed. Another area little is heard about is the Ogaden region 
of Ethiopia where hundreds of thousands of civilians have fled 
to refugee camps in Kenya over the past years. The Ogaden is a 
forgotten tragedy. Efforts to resolve the conflicts in the 
region have lead to an important peace agreement. Although, 
this agreement has not lead to lasting peace and stability in 
the region.
    The United States has been actively engaged in the Horn of 
Africa since the early 1960s. We helped secure the border 
dispute between Ethiopia and Eritrea and the comprehensive 
peace agreement in Sudan. Relations between Eritrea and the 
United States once strong are currently poor. Our relations 
between Ethiopia and the United States are strong. Although, 
some Members of Congress and human rights groups have been 
critical of Ethiopia's human rights record and the handling of 
the 2005 and 2010 elections.
    What is the terrorist threat in the Horn of Africa? Well, 
the takeover of power in Sudan by the NIF government in 1989 
led to a significant increase in the activities of 
international terrorist groups. The NIF government provided 
safe haven for well-known international terrorist organizations 
and individuals, and the government security services also were 
directly engaged in facilitating and assisting domestic and 
international terror groups. It was during the 5 year's stay in 
Sudan Osama bin Laden laid the foundation of al-Qaeda. The 
penetration by al-Qaeda into east Africa is directly tied to 
Sudan's early years of support to international terror 
organizations.
    Indeed, the 1990s saw dramatic and daring terrorist attacks 
against American interests in east Africa. Over the past 2 
years, a number of local terrorist groups have emerged in 
Somalia, including Al-Shabaab, the Ras Kamboni Group and Hizbul 
Al-Islam, but what is the evolution of the terrorists groups in 
east Africa? Well, we have to go back to the early '90s where 
Islamic Courts began to emerge in parts of the country. At the 
beginning, these courts functioned as local governments and 
often enforced decisions by using their own militia. Members of 
the Al-Ittihad Al-Islami, for example, provided the bulk of the 
security forces for these courts in the 1990s.
    By the late 1990s, Ethiopian Security Forces and their 
allies severely weakened Al-Ittihad. However, the absence of a 
central government in Somalia created an environment conducive 
to the proliferation of armed factions throughout the country. 
In 2003, the leadership of Al-Ittihad, including Sheik Ali 
Warsame, who is the brother-in-law of the terrorist listed, now 
Sheik Aweys, and the leader of one of the terrorist groups 
Hizbul Al-Islam, met and later decided to form a new political 
front, the Islamic Courts Union, which came to the scene in 
2006 included some of the top leaders of Al-Ittihad.
    However, the young members of those Islamic movements did 
not agree with the old guard and instead they decided to form 
their own organization. This young generation of Islamists, 
some of whom had fought in Afghanistan, met and formed later on 
Al-Shabaab. Some of the key commanders and leaders of Al-
Shabaab come not from central Somalia or southern Somalia but 
Somaliland. One of the top leaders is Ahmed Abdi Godane, also 
known as Abu Zubayr, who was trained in Afghanistan, fought in 
Afghanistan, is now one of the top leaders of Al-Shabaab.
    Mukhtar Robow, also another Afghani trainee, is the top 
leader and the face of the Al-Shabaab. Ibrahim Haji, also known 
as Al-Afghani, who is also on the U.S. terrorism list, is also 
from Somaliland and one of the top leaders of Al-Shabaab. 
Hassan Al Turki, a member of the Ogaden clan from Ethiopia, is 
one of the extremist leaders and a member of Al-Shabaab now. 
The U.S. counterterrorism efforts in the Horn of Africa region 
have shown some success in containing terrorism and extremism.
    Several countries in east Africa have benefitted from 
training and material support from the United States. Several 
known terrorists have been killed. In mid-September 2009, U.S. 
forces killed Saleh Nabhan, a senior al-Qaeda member and one of 
the three involved in the attacks of the U.S. embassies in 
Kenya and Tanzania. Of the three most wanted al-Qaeda leaders 
in east Africa, the only one left now is the leader of the 
group and the alleged mastermind of the embassy bombings, 
Haroon Fazul.
    On the other hand, the Ethiopian invasion, with the support 
of the United States, is seen by some as having contributed to 
the emergence of Al-Shabaab and the proliferation of other 
extremist groups in Somalia. The ouster of the Islamic Courts 
Union leadership by Ethiopia in 2006 created a security vacuum 
that was quickly filled by the most radical elements of the 
Islamist movement. As was the case when the withdrawal of the 
U.S. and U.N. forces in the mid-1990s from Somalia also created 
a security vacuum which was quickly filled by Somali warlords.
    Al-Qaeda and its allies are reportedly much stronger today 
than they were a few years ago even though al-Qaeda has not 
been able to penetrate deeper into Africa and win a strong 
following. Al-Shabaab has been able to recruit dozens of 
Somalis from the United States, Europe and the Middle East, a 
number of whom have carried out suicide attacks inside Somalia. 
Many of these recruits joined Al-Shabaab at the height of the 
fighting between the Ethiopian forces and Al-Shabaab. Some 
thought they were going to fight a foreign invader. Others saw 
this as a religious duty. Moreover, more Somalis sees now 
themselves as victims of Al-Shabaab and view this group as a 
foreign-controlled and led organization.
    Let me now just speak briefly about the Horn of Africa 
countries Djibouti, Eritrea, Ethiopia and Somalia. Djibouti's 
pro-Western foreign policy stance and close alliance with the 
modern Western government over the years have earned Djibouti 
friends, including the United States. Djibouti is an important 
strategic ally. During the 2003 Iraq War, Djibouti provided 
access to its port and airfields as well as facilities for 
training purposes. Djibouti also served as one of the two 
locations worldwide for USAID Food for Peace program's storage 
facilities.
    Over the years, Djibouti has played key roles in 
facilitating negotiations especially among Somali factions. The 
last peace agreement, which led to the formation of the TFG was 
negotiated in Djibouti. The government in Djibouti can be said 
as open but dominated by one party. It is a multi-party system, 
but the ruling party controls all the seats in Parliament and 
regional councils. On April 8, 2005, President Guelleh won the 
elections. He unfortunately was limited to two terms, but in 
April of this year, the Djibouti Parliament amended the 
Constitution by removing the Presidential term limits paving 
the way for President Guelleh to run for a third term.
    One issue that has been of major concern to the region and 
the U.S. is the border disputes between Djibouti and Eritrea. 
In June 2008, Eritrean and Djibouti forces clashed and an 
estimated 35 people were killed with more than 50 wounded. The 
crisis erupted after several months of tensions following troop 
deployments to the border by both Eritrea and Djibouti. The 
dispute centers around claims by both sides over Ras Doumeira 
and the Doumeira Island.
    After almost a year of no progress, 2 weeks ago the 
Governments of Djibouti and Eritrea agreed to resolve their 
dispute through negotiations under the auspices of the 
Government of Qatar. Eritrean forces this then have withdrawn 
from the border area, and Qatar has deployed its forces as 
observers. Now to Eritrea. Over the past decade, Eritrea has 
faced serious internal and external challenges. In 1998, the 
war between the two neighbors led to the killings of 100,000 
people and displacement of over 1 million.
    The dispute between the two was followed by the most 
serious rift within the Eritrean Liberation Movement. The 
crisis split the top leadership, and in 2001, President Isaias 
ordered the arrest of 15 top ruling-party leaders. The 
government alleges that these officials, known as the Group of 
15, were engaged in a conspiracy to overthrow the government 
during the conflicts with Ethiopia. The Government of Eritrea 
also accused some American officials in the Clinton 
administration of being co-conspirators. Two Eritrean employees 
of the U.S. Embassy were also arrest, accused of being part of 
the conspiracy.
    None of these prisoners have been formally charged and have 
been given access for visitors. Political parties in Eritrea 
are not permitted to operate, and there have been no elections 
since independence. The crackdown and allegations against the 
former Clinton administration officials strained relations 
between the United States and the Government of Eritrea. For 
most of the 1990s, the government of Isaias Afewerki was 
considered a strong strategic ally. Eritrea indeed played a key 
role in the fight against the Bashir regime and support to the 
SPLM and its allies. Eritrea was also one of the first African 
countries to join the U.S.-led coalition of the willing.
    Since the late 1990s however, U.S. officials have expressed 
concern about the wide range of issues, including human rights 
conditions, Eritrea's role in Somalia, border disputes with 
Djibouti and Ethiopia and freedom of the press. Over the past 
decade, the United States has imposed a number of punitive 
measures on Eritrea. There is no U.S. assistance program in 
Eritrea, and the U.S. also closed its consular section in 
Eritrea.
    Eritrea nationals seeking U.S. visa must now obtain their 
visa in a third country. The Eritrean Government has also 
imposed restrictions on visas. Although, in recent years the 
government has issued visas to U.S. officials, journalists and 
human rights organizations. In March 2010, the Principal Deputy 
Assistant Secretary of State for Africa and another State 
Department official were issued. What were the efforts made to 
improve relations?
    Over the past several years, President Isaias has stated 
that his government is ready to constructively engage 
Washington on a wide range of issues, including cooperation on 
the war on terror. In 2008, the Eritrean Government sent a 
letter to then President Bush offering dialogue in order to 
improve relations. The letter was delivered with a cover letter 
by a Member of Congress to the White House in early 2008. The 
Bush administration did not respond to offer for dialogue.
    The Obama administration early on expressed interest in 
engaging the Eritrean Government in order to address some areas 
of concern. President Isaias in a letter to President Obama in 
May expressed similar interests. A few months later, Assistant 
Secretary of State Carson announced his intention to go to 
Eritrea. The proposed visit by the Assistant Secretary however 
took a different turn by late 2009. In December 2009, Carson 
wrote to the Eritrean foreign minister stating that

        ``I registered my willingness to meet with you in 
        Europe or Africa to discuss some of the issues that 
        have generated division in our relationship. That offer 
        still stands. No meetings in Washington however will 
        take place.''

    A few months after the offer to meet in a third country, 
Carson's Principal Deputy, Donnie Yamamoto, applied for and 
received a visa to go to Eritrea. Yamamoto went to Eritrea in 
May 2010, but the Eritrean Government officials refused to meet 
with him arguing that he obtained his visa to do work related 
to the U.S. Embassy. Ambassador Yamamoto stated that he intends 
to go back to Eritrea and has submitted another request for a 
visa.
    Interestingly, he is the only foreign official who has been 
given access to the Eritrean prisoners in 2003. In late 2009, 
the U.S. took the lead in the imposition of sanctions against 
Eritrea and the U.N. Security Council. The sanctions were 
imposed because of Eritrean alleged support to armed groups. 
Eritrea also provided safe haven to the current President and a 
number of ministers serving in the TFG. Now to Ethiopia.
    I am sure you know what transpired. As the chairman said, 
the elections were peaceful, but the outcome of the election 
clearly indicates that the ruling party emerged dominant. The 
ruling party, for example, won 545 seats out of 547. They have 
also won the entire city council seats in the capital city as 
well as all the regional state council seats. Now, if you look 
at what happened in 2005, it was quite the reverse. The 
opposition won over 160 seats and the entire seats in the 
capital. What happened and what led to this? What were the 
environments before the elections?
    Well, pre-election conditions were marred by the 
harassment, detention and in some cases killings of opposition 
members. The combination of measures taken by the ruling party 
over the past several years not only weakened legal opposition 
but also crushed civil society, human rights groups and the 
independent press activities. Moreover, use of government 
resources, the civil service and the security forces to 
strengthen constituency base of the ruling party through 
intimidation and incentives help the EPRDF build a strong 
following.
    The forced exile of opposition leaders, civil society 
groups and independent journalists also help the EPRDF to 
secure victory. Some Ethiopians and outside observers also 
assert that many were fearful of being killed or injured should 
they express support to opposition groups. Recently adopted 
laws restricting NGOs, media and the anti-terrorism law are 
being used to stifle the activities of opposition groups, the 
independent press and civil society groups. It is also 
important to point out that opposition groups also contributed 
to the sweeping victory of the EPRDF.
    Since the 2005 elections, opposition groups in Ethiopia and 
Diaspora have been fragmented and fought each other more than 
preparing a united front. Opposition groups have often spent 
more time in the capital or outside the capital than in 
building a constituency base throughout the country. Opposition 
groups were successful in 2005 in large part because of the 
grass roots work that was done. The 2010 elections result 
clearly show Ethiopia moving toward a one-party rule despite 
the presence of other parties affiliated with the ruling party.
    Prime Minister Meles Zenawi has stated that he and a number 
of the senior leadership of the ruling party will retire by 
2015. Even at this juncture, the prime minister has served in 
power longer than the military junta Mengistu. Moreover, it is 
not clear at this juncture if the retirement of the old guard 
will pave the way for a true multi-party democracy in Ethiopia. 
I think I will conclude briefly by mentioning the situation in 
the Ogaden. Once again, there are many people who have been 
displaced and many people who have fled and many civilians who 
are being targeted through rape, hanging and outright 
destruction of their villages.
    Lastly, on Somalia, I am sure my colleagues will cover it, 
but let me briefly talk about what happened a few weeks ago 
with the central government. In mid-May 2010, the Somali 
Speaker of Parliament resigned after several months of disputes 
with the Prime Minister and the Deputy Prime Minister. A day 
later, President Sheikh Sharif Ahmed fired the Prime Minister. 
However, the reversal of the decision seemed pre-planned to 
oust the Speaker from office by those close the President.
    In late May 2010, the former Finance and Deputy Prime 
Minister, Sheik Sharif Hassan, ran for Speaker and won the 
support of 217 members out of 550. The Deputy Prime Minister 
has been campaigning to oust the Speaker for several months. He 
received the support in Parliament in part through bribing and 
other means. The former minister resigned in protest arguing 
that this was pre-planned and that Hassan used government 
resources to bribe members of Parliament to support his 
candidacy.
    The current state of affairs in Mogadishu threatens the 
authority of the President and the government and could also 
lead to more defections. This situation could also help those 
extremist groups and extremist element to get the upper hand. 
Let me stop here, and I thank you, Chairman.
    [The prepared statement of Mr. Dagne follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much, and I asked Mr. Dagne to 
take additional time, which is unusual, but we wanted to get a 
focus on the overall region. The State Department did not send 
a representative, and this was about as close as we could get 
to what the U.S. policy is, and I know it went over a bit, but 
I appreciate the indulgence of everyone because this has to be 
a matter of the record as we move forward as our committee 
determines what we will be doing legislatively, and so I do 
appreciate the indulgence of everyone and certainly appreciate 
your very thorough testimony, Mr. Dagne.
    We will now hear 5 minutes from Ms. Lefkow, and the others 
will follow in that order, and then we will open for questions. 
Thank you very much. I appreciate your being here, and thank 
you for your patience.

   STATEMENT OF MS. LESLIE LEFKOW, SENIOR RESEARCHER, AFRICA 
                  DIVISION, HUMAN RIGHTS WATCH

    Ms. Lefkow. Thank you very much, Chairman Payne and members 
of the subcommittee for inviting Human Rights Watch to 
participate in this incredibly important hearing. I am very 
happy that Mr. Dagne has already covered so eloquently many of 
the countries because I am going to focus my remarks on 
Ethiopia, not obviously because it is more important than the 
other countries, but it is at a critical moment with the 
elections that just passed in May. Mr. Chairman, Ethiopia is 
not democratizing. The May 2010 elections provided a stark 
illustration of this fact.
    As you know, the ruling party won more than 99 percent of 
the vote, but what concerns Human Rights Watch more even than 
the results of these elections is the fact that they are simply 
a milestone in a broader agenda and strategy of consolidating 
control. We are particularly concerned that the assault on 
civil society in Ethiopia is a trend that will continue and 
worsen, and this should deeply concern Ethiopia's friends and 
partners.
    It is clear now that the brief window of political space 
that opened up before the elections in 2005 was an anomaly, and 
that window has now been slammed shut. Human Rights Watch's 
research on the ground indicates that the government has used a 
multi-pronged strategy of oppression, and as I said, this was 
partly in the lead up to the elections, but it is a strategy 
that we fear will continue long after the elections, and one of 
the elements in the strategy has been the repression of the 
political opposition. I think you are all aware that government 
critics have been subjected to arbitrary detention, to 
harassment and sometimes even torture in detention.
    The case of Birtukan Mideksa, of course one of the most 
prominent opposition leaders, is emblematic of this trend. She 
was re-arrested in December 2008 for allegedly violating the 
terms of her pardon, but we hear about prominent cases like 
Birtukan's. We don't hear very much about the millions of 
Ethiopian's who suffer repression on a day-to-day basis outside 
of Addis Ababa where there is very little spotlight on what is 
happening. Eighty-five percent of Ethiopians live in the rural 
areas.
    I would like to just spend a moment talking about the 
apparatus of control that is used in these areas. This is an 
apparatus that is an inheritance from the Derg, from the 
military regime of Mengistu, and it is a collection of 
households into cells at village or neighborhood levels, 
sometimes eight households, sometimes 10 households in cells, 
and these administrative structures, as you can imagine, they 
can be benign, but they can also be a very effective tool of 
surveillance and monitoring and control, and this structure of 
course is what was used very effectively in the lead-up to the 
elections, but it is also a structure that will be there long 
after any electoral period is over.
    These structures are very much at the core of the 
repression that is used in the rural areas. As one teacher told 
Human Rights Watch a few months ago when we were doing research 
in the country, you have to understand, he said, that at the 
grass roots level everything is organized according to the 
EPRDF ideology. Everything is organized and controlled by 
cells. If you are opposition, you are excluded.
    I think I am stressing this because to understand the 
climate of fear that exists, that is sometimes not very 
tangible if you are visiting for a day or a week or even a 
month, but exists there and touches the lives of millions of 
Ethiopians on a day-to-day basis, I think to understand that is 
to understand how this strategy of oppression works and 
succeeds. I would like to just spend one moment mentioning as I 
mentioned the targeting of civil society because as I said, 
this is a concern that is going to last far longer than any 
electoral repression.
    What we have seen in the last year since the adoption of 
this very repressive NGO law is basically the evisceration of 
independent civil society in Ethiopia. Most of the most 
prominent Ethiopian human rights activists have fled in the 
last year. The most prominent organizations have been gutted. 
Their staff are now in hiding. Their budgets have been frozen. 
They have had to shut offices. This is the bottom line in terms 
of the effect of this law.
    The media of course has also been a target over the last 
year or 2, and I think we see that in a number of ways, and one 
of the primary impacts of the media law and of the hostility 
toward independent media is self-censorship. In fact, you see 
even the semi-independent press will often not touch very 
sensitive subjects. I see that I am running out of time. I am 
going to take just another few seconds if I may to just mention 
one other issue which is a key concern, and that is impunity of 
the security forces.
    The Ethiopian military's record in dealing with the very 
real and legitimate security threats that Ethiopia faces is a 
terrible record. As I said, the government faces genuine 
security issues, but the way that security forces have dealt 
with these threats has often been to indiscriminately attack 
civilians, and there has been utter impunity conferred on the 
perpetrators be they in Gambella, be they in the Ogaden area of 
Somali Region or be there in neighboring Somalia.
    This I think is an area of concern that the United States 
as a friend and as an ally of Ethiopia must press in the coming 
weeks and months. Accountability is at the core of a stable and 
viable partnership with Ethiopia, and that of course should be 
all of the shared goals of both the Ethiopian Government, the 
U.S. Government and all of us here today. Thank you very much.
    [The prepared statement of Ms. Lefkow follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you. Ms. Ali Aden?

  STATEMENT OF MS. SADIA ALI ADEN, HUMAN RIGHTS ADVOCATE AND 
                        FREELANCE WRITER

    Ms. Ali Aden. Thank you, Mr. Chairman. Chairman Payne, 
Ranking Member Smith and distinguished members of this 
committee, thank for your holding this very important hearing 
that sheds light on Somalia's humanitarian catastrophe and the 
impact on women and children. Mr. Chairman, I am honored to be 
given the opportunity to come and speak today on a subject that 
is dear to my heart: The suffering of Somali women and 
children. Mr. Chairman, with your permission, I would like to 
ask that my full testimony be submitted into the record.
    Mr. Payne. Without objection.
    Ms. Ali Aden. Protracted wars, civil or otherwise, 
victimizes predominantly woman and children, and nowhere is 
this fact more pronounced than in Somalia. Whether in refugee 
camps or in the neighborhoods of Mogadishu, the grim images of 
women and children in profound state of anguish, vulnerable 
human beings tormented by endless inter-Somali, inter-clan, 
inter-warlords, inter-sectarian strife for power and 
domination, but their stories are never the dominant narrative 
of consequence of that long conflict.
    Since the collapse of the Somali state in 1991, Somali 
women have played a pivotal role at the most dire period of 
their country's history, especially in the social and economic 
sector of the society. Women play an active role in maintaining 
integrity, values and the structure of Somali family and 
community. While by and large men fought in offense or the 
defense of senseless clan strife, Somali women became the bread 
winners of the society. That is reaffirming their profound 
resilience and selfless capacity.
    Today, because of insecurity created by the conflict 
between warring forces, hundreds of thousands, particularly 
women and children and elderly, are forced to flee and become 
internally displaced persons. This on again, off again massive 
security-related displacement of civilian population has become 
the predictable nightmare resulting from each time the 
insurgents and government clash. Today, Somalia remains one of 
the worst humanitarian catastrophes in the world.
    With nearly 1.5 million internally displaced, these IDPs 
are lacking water, shelter and food. Most cluster in make-shift 
refugee camps outside Mogadishu. These IDPs may not have food 
or water for days. Sadly, through these dire conditions, women 
give birth to children and raise them under such uncertainties. 
In Afgooye alone, 30 kilometers south of Mogadishu, there are 
about 400,000 IDPs according to UNICEF. One-quarter of those 
are children under the age of five.
    Hundreds of thousands more refugees, women and children 
mostly, ended up in refugee camps such as the Dadaab, which was 
originally built for 90,000 refugees but now holds over 280,000 
refugees of mostly women and children. According to Refugee 
International, these refugees are in four main asylum 
countries, Djibouti, Ethiopia, Kenya and Yemen. Some have been 
in exile for the past 18 years. Moreover, Mr. Chairman, there 
are nearly 3.5 million civilians out of total population of 8 
million are on the verge of starvation.
    Whenever fighting intensifies, the flow of essential foods 
stops, sometimes for months an in early 2010 when the World 
Food Programme decided to suspend its delivery and distribution 
of emergency food in the south and central Somalia. Armed 
conflicts, droughts and absence of public infrastructure have 
led to famine, disease and death of hundreds of thousands of 
people. USAID's report of June 1, 2009, shows 3.5 million are 
in need of humanitarian assistance. 650,000 of those are 
children under the age of five.
    Children are also increasingly being denied access to 
education because of the continuing civil war. Seventy-five 
percent are located in central and southern Somalia. Of the 
displaced, some of those, especially women with maternal 
mortality ratio of 1,044 per 100,000, live in difficult 
conditions making Somali women among the most high-risk groups 
in the world. Mortality among the children under the age of 5 
is staggering 142 per 1,000 compared to world's combined 68.
    The heroes under the radar at the Dr. Hawa Abdi Hospital, 
which is located outside Mogadishu-Afgooye corridor kilometer 
21 is run by Dr. Hawa Abdi assisted by her daughter Dr. Deqa 
Mohamed. They hold in their camps surrounding the hospital 
about 72,000 IDPs. Of those, 18,000 are families with children. 
Out of those, 43 percent are children, 32 percent are women, 16 
percent are elderly, and 9 percent are men. They have a daily 
visit of 980 per day. Of those, 580 are children, 320 are women 
and 80 are men.
    They have five doctors, 60 nurses, 160 healthcare 
personnel, some of them trained before the collapse of the 
state. The assistance they get is only coming from medications 
provided by Doctors without Borders and Dr. Hawa Abdi's 
Hospital, herself, and other sponsors such as individuals and 
Somalis in the Diaspora and sometimes the Italian Embassy. I 
will touch on the child soldiers, Mr. Chairman, hopefully with 
question/answer session, but the senseless game of tit for tat 
between the insurgents, government and AMISOM is something also 
that I would like to talk about later.
    Without talking about the toxic waste, I would not think I 
would be able to cover the humanitarian crisis in Somalia. Mr. 
Chairman, there is a ticking environmental bomb beneath the 
Indian Ocean that were something to go wrong could potentially 
cause or exceed damages being caused by the current massive BP 
oil damages to countless barrels dumped in the Somalia waters. 
Mr. Chairman, the illegal hyper-fishing still continues.
    This practice has put certain Somali fishing communities in 
economic dire straights, and I would like to emphasize that 
more later, but I would like to offer my recommendations if 
that is okay. I would like for the U.S. Government and for you 
to help provide adequate access to humanitarian assistance; 
support the formalization of the U.S.-Somali relationship. It 
is encouraging that now Somalia has appointed an envoy to 
United States.
    We would like for President Obama, since he has started 
already the process, to also appoint an envoy; provide 
incentive for disarmament, especially for children; help 
sustain the TFG to become strong and politically capable to 
secure the country but also firmly press the TFG to continually 
engage and reconcile with the opposition groups; engage and 
empower the Somali Diaspora because they are essential to the 
stability of the Somali state; and pass laws that prevent the 
illegal fishing and toxic waste dumping from American 
companies.
    Lastly, support and provide services to individuals, Dr. 
Hawa Abdi and other centers. I thank you for giving me the 
opportunity to speak regarding this life and death situation.
    [The prepared statement of Ms. Ali Aden follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much for your testimony and your 
recommendations. Dr. Menkhaus, you may take more than the 
allotted 5 minutes if you need since Mr. Smith kindly invited 
you. I don't want to hear from him later that I didn't give you 
the equal footing. Not as much time as you may consume, but if 
you have to exceed 5 minutes, that is fine. Thank you.

    STATEMENT OF KENNETH JOHN MENKHAUS, PH.D., PROFESSOR OF 
 POLITICAL SCIENCE, DEPARTMENT OF POLITICAL SCIENCE, DAVIDSON 
                            COLLEGE

    Mr. Menkhaus. Thank you. Congressman Payne, Congressman 
Smith, distinguished members, thank you for the opportunity to 
share my assessment of the situation in the Horn of Africa and 
its implications for U.S. policy, and with your permission, I 
would like to go off script rather than read excerpts from my 
submitted testimony, and instead provide some summary remarks 
that I hope can tie together some of the issues that we have 
discussed as a group this morning.
    Mr. Payne. All right.
    Mr. Menkhaus. I am focusing my remarks on Somalia and our 
policy specifically with regard to the political crisis in 
Somalia. My colleagues have already made reference to the 
security threats and the humanitarian policies there, so I 
won't return to that in great detail. Our policy in Somalia has 
been framed for several years by support to the Transitional 
Federal Government or TFG. That has never been a policy that 
has been embraced because it was seen as having high promise 
but because it was always seen as the best of bad options.
    The bad news; after 6 years of a 5-year transitional 
government is that the TFG is no longer the best of bad 
options. It is simply a bad option. It is not working. The 
government is in disarray. Most of its members have resigned or 
reside outside the country. It controls only a few districts of 
the capital that are in fact secured by African Union 
peacekeepers. It has been notorious for corruption. Its 
security forces have been a law until themselves at times. It 
has, in short, been an enormous disappointment at the cost of 
millions of dollars.
    The fundamental problem with the Transitional Federal 
Government is not that it is weak. If it were only weak, state 
capacity-building assistance would be the cure. This is not a 
case of a government that is willing but not able. This is a 
case of a government that is neither willing nor able. Top 
political elites see the Transitional Federal Government as an 
opportunity to make money without taking the risks and the hard 
work of actually reviving the failed state in Somalia.
    Shabaab as a result has consolidated control over all the 
territory from the Kenyan border to most of the districts of 
Mogadishu and now all the way up to Beledweyne on the Ethiopian 
border and south central Somalia. Shabaab is not strong. It has 
numerous internal divisions, but it is the only player on the 
playing field, and so it is strong mainly as a function of the 
TFG's weakness. Many observers believe that Shabaab can be 
melted. There can be defections.
    There are large groups within Shabaab that are not really 
committed to hard-core jihadism, but those individuals and 
groups, as with the rest of Somali society, will not rally 
against Shabaab, will not defect from it unless they see a 
viable alternative, and at present, there is no viable 
alternative in Somalia. So the population is acting in a 
predictably risk averse manner supporting tacitly or 
acquiescing to Shabaab control.
    What can we do in the face of this very deeply frustrating 
situation? I would like to add that by all accounts there is 
frustration in U.S. Government and frustration in other foreign 
capitals over this. The time is ripe for a policy shift. I 
would argue that for starters we need to look at a 
diversification strategy, not to decertify the Transitional 
Federal Government, but to demote it to a transitional 
authority tasked strictly with implementing key transitional 
tasks in this government.
    Meanwhile, we should be engaging any legitimate powerful 
and effective authorities that we find at the subnational 
level. That is not simply to say that we should be supporting a 
policy of building blocks of regional states. There are some 
regional states, such as Somaliland and Puntland that can and 
should be engaged. We already provide support to them. We can 
deepen that support, but that is not necessarily a model for 
the rest of the country. In fact, in much of southern Somalia, 
regional states, Federal states are actually an invitation to 
war.
    Instead, we need to look where governance is actually 
happening empirically in Somalia. It is not in fact an anarchic 
country. There is lots of ``governance with a small g'' going 
on, and most of it is actually happening at the municipal level 
in towns, Cross-clan alliances forged by common business 
interests and the need to secure basic law and order do occur. 
They occur beneath Shabaab in some cases, in spite of Shabaab 
in other cases, and beyond Shabaab's control in other areas of 
the country.
    We should be engaging any local authority that we can find 
that is effective to create some competition for good 
governance in Somalia to put pressure on the TFG and to end its 
monopoly on access to external assistance. In addition, we need 
to consider a regional strategy. As Ted Dagne has already 
alluded to, Somalia forms part of a regional conflict complex. 
We have got to in particular put pressure on Ethiopia and 
Eritrea to resolve that long-running impasse that infects the 
rest of the region.
    We also need to put pressure on our friends in the 
Ethiopian Government to come to some kind of rapprochement with 
the Ogaden National Liberation Front. Those two developments 
alone would have enormous positive benefit in Somalia. We need 
to recognize that the U.S. Government has good relations with 
most of the governments in the region, and that is a great tool 
for us, but the problem is, as many of my colleagues have 
alluded to, those governments are in fact enemies of large 
sections of their own populations, and that is a problem for 
us.
    Recruitment by al-Qaeda or other radical groups is going to 
enjoy ideal conditions where people are angry with repressive, 
predatory governments that are supported by the United States. 
We need to recognize that some of these allies of ours in the 
region are allies, but we are fighting somewhat different wars. 
Our principal concern is al-Qaeda's influence in the region and 
by extension Shabaab's ability to engage in terrorist attacks 
in the region. Their principal interest is political 
survivalism and sometimes the use of counterterrorism agendas 
against domestic opponents who may or may not in fact be 
enemies of ours.
    Finally, if we were gaining more security in the region at 
the cost of some compromises on humanitarian access, human 
rights, democratization, we could at least be having an 
interesting ethical debate over tradeoffs. The tragedy in this 
region and the tragedy for U.S. foreign policy is we are 
getting none of those. The region is palpably more insecure 
today than it was 5 years ago even as we have forfeited voice 
on matters of humanitarian access and democracy and human 
rights deferring to some of our regional allies rather than 
confronting them, and we are getting nothing right now, and I 
think that is really grounds for a major policy rethink in the 
region. I will stop there.
    [The prepared statement of Mr. Menkhaus follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Payne. Thank you very much. We have our final witness, 
Mr. Amum Okiech.

  STATEMENT OF MR. PAGAN AMUM OKIECH, SECRETARY GENERAL, THE 
               SUDAN PEOPLE'S LIBERATION MOVEMENT

    Mr. Amum Okiech. Thank you, Chairman Payne, Congressman 
Smith and members of the subcommittee. I thank you for holding 
this important hearing on current conditions and U.S. policy in 
the Horn of Africa. I appreciate the opportunity to speak on 
behalf of the Sudan People's Liberation Movement and the people 
of Sudan about the momentous changes taking place in our 
country and the role we hope the United State of America can 
play in helping us avoid a return to conflict in Sudan and 
ensure a brighter future for the Sudanese people who have seen 
so many years of war and suffering.
    Mr. Chairman, sir, if you may allow me, I have submitted a 
written testimony, and I would like to use to the few minutes 
to proceed to make recommendations?
    Mr. Payne. Without objection.
    Mr. Amum Okiech. And I will start by stating that Sudan, my 
country, is a failed state. Sudan is a failed state because at 
independence, the Sudanese political leadership have failed to 
develop and agree to an inclusive nation-building consensual 
project, a project that would have transformed the decolonized, 
multi-cultural society and build it into a multi-cultural 
inclusive nation. This failure led to profound national crisis 
expressing itself in multiple devastating civil wars and to an 
entrenchment of a highly repressive extremely violent military 
dictatorships, transforming the Sudanese state into a 
predictory state.
    Mr. Chairman, sir, this state failure and national crisis 
and misrule is responsible today for causing the imminent 
disintegration of the Sudanese state. The CPA, the 
Comprehensive Peace Agreement, was an attempt to resolve the 
Sudanese national crisis and to end the conflict between the 
Central and Southern Sudan, Abyei Nuba Mountain and Blue Nile 
regions on the other hand, while civil wars still continued in 
other parts of the country in eastern Sudan and in the Darfur 
region in western Sudan.
    Today, with the developments that are happening in our 
country, I would recommend the following: That the Government 
of the United States of America support a full implementation 
of the CPA and that it will lend its active support to ensure 
the conduct of the referendum on self-determination for the 
people of Southern Sudan in time as agreed in the Comprehensive 
Peace Agreement that is no later than January 2011.
    We ask for your support for the conduct of this referendum 
to ensure that it is transparent, free and fair and would 
result to a credible choice by the people that would be 
credible on reflecting the will of the people of Southern 
Sudan, and we would call on the Government of the United States 
of America to accept, respect and recognize the choice of the 
people of Southern Sudan in the interest of peace, which most 
likely will be a choice for independence or secession of 
Southern Sudan given the fact that unity has not been made 
attractive in 5\1/2\ years of the interim period.
    I also recommend that the United States of America assist 
the North and Southern Sudan to negotiate post-referendum 
arrangement to establish friendly cooperative relations to 
serve the best interest of Southern and Northern Sudanese 
peoples. I recommend that the Government of United States 
recognize the new independent state in Southern Sudan and focus 
its support to the Government of Southern Sudan to build 
capacity of institutions of governance in the would be new 
state so as to emerge as a stable, peaceful and prosperous 
state that would contribute to peace and stability in our 
region, the Horn of Africa.
    And with regard to Northern Sudan, we recommend that the 
Government of United States continue to support the conduct of 
popular consultation in the two states of Blue Nile and 
Southern Kordofan and continue to work to end the conflict and 
war in Darfur and achieve peace and justice through a peaceful 
settlement that would end the marginalization of people of 
Darfur and respond to the legitimate needs and aspirations of 
the people of Darfur to govern themselves and participate in a 
fair manner in the governance of the rest of Northern Sudan.
    We also believe that it would be important to support the 
democratic forces in Northern Sudan, including the SPLM in the 
north to achieve a fundamental transformation of Northern 
Sudanese state from a totalitarian fundamentalist state into a 
secular democratic state that would achieve inclusivity and 
realize peace and marginalization within Northern Sudan so that 
there would be peace within Northern Sudan and transform the 
relations between Northern Sudan and its neighbors, including 
Southern Sudan and all the other neighbors, Ethiopia, Eritrea, 
Chad, Libya and Egypt into peaceful relations and ending all 
forms of interventions and attempt to export destabilization 
which has been the practice of the ruling political force in 
the north.
    To end, Mr. Chairman, I believe that the United States of 
America can use in a smart manner incentive and disincentives 
in the Sudan to encourage the Sudan achieve a transition into 
peace, possibly into becoming two stable states, and the two 
stable states will join hands together, work in good relations 
and join with the other states in the region to build a free 
peaceful and prosperous Horn of Africa. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Amum Okiech follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Payne. Thank you very much, and let me thank all of the 
panelists, and as I indicated and so that it is clear for the 
record that our witness who just testified is representing the 
SPLM, which is a movement. He is not a representative of the 
Government of South Sudan just so it is very clear. Let me 
begin. You heard the bells. What I will do is to ask a quick 
question, perhaps take 3 minute or so. I will let Mr. Smith 
give that quick question. We would then recess for 15 minutes, 
and we should be back. We have, as you can see, a 15-minute 
vote, and there is 5 more minutes to go, but we will stay. When 
it is zero numbers on the time remaining, we will still get 
there in time.
    Then, when that vote is completed, there will be a 5-minute 
vote and perhaps a second 5-minute vote, so we should actually 
be back within 15 minutes supposedly, but let me ask the first 
question in regard to Sudan, Dr. Menkhaus. We all feel that the 
current Government of Somalia is weak. We are aware of the fact 
that I guess for 15 years there was no government, and I 
imagine when the TFG actually started with the concept, it was 
really not an elected body. It was a body put together by clans 
and subclans. It was felt that if everyone could included, that 
at least that can transition toward an official election.
    Of course, it is very difficult to have elections when you 
have the lack of security. With the sort of merger more or less 
or the coming together of the TFG or ICU. Initially, the TFG 
said they would not accept any members of the ICU after 
conferences and so forth over a course of a number of years. 
They tended to accept moderate members of the ICU, and that is 
how Sheikh Sharif Sheikh Ahmed became its head.
    Having said all that, and you did mention regional 
possibilities of working underneath the government, so I just 
wonder if you could spend a couple of minutes once again sort 
of going over your theory of how a governing body could at this 
time be installed and what it would look like, how would it 
operate? You are not going to do that in about 2 minutes, but 
you could do as much as you can, and then I yield to the 
gentleman from New Jersey.
    Mr. Menkhaus. Thank you. The first principal behind a 
diversification strategy would be to cease rewarding the very 
bad behavior that is causing the failure of the TFG in the 
first place. We have got with the Transitional Federal 
Government--and we have had this in other parts of the world as 
well where we have governments that appear to be both unwilling 
and unable to govern--we run the risk of moral hazard, in which 
we are reinforcing the very behavior that we are trying to 
overcome.
    In the case of the Transitional Federal Government, the 
millions of dollars that have gone to it virtually 
unconditionally over the years have provided a very nice living 
for a number of people who have positioned themselves at the 
spigot of foreign aid in the TFG, and they have exhibited no 
interest in building a government capacity. How to work around 
them? By working with regional polities as well, not 
decertifying entirely the TFG.
    I think there are powerful arguments that at least the 
shell of a transitional government is needed to be filled by 
whomever in the near future. But why not work with Somaliland 
more aggressively, more with Puntland, more potentially with 
the Galmudus region, other regional or municipal authorities 
where they appear. Presumably this would only occur across 
south central Somalia if Shabaab were in fact to lose control 
over some of these areas, and I think that is entirely possible 
in the coming year or 2.
    They are deeply unpopular among Somalis. If given the right 
conditions, I think they can be pushed out of different areas. 
What we could do is provide Somalis, particularly at the 
municipal level, with opportunities for functional cooperation. 
It is at the town level where cross-clan alliances are forged. 
We are already pretty good at this, UNICEF, NGOs, a number of 
different U.N. specialized agencies have worked with town 
authorities across the country.
    It is where I have seen over the past 15 years some of the 
best most effective, most legitimate governance occurring. What 
that would do is it would give people confidence in an 
alternative, and it might provide Somalia with the opportunity 
to cobble together what some of us have been calling, for lack 
of a better term, a ``mediated state.'' That is to say a state 
that isn't built from the top down, but rather one which is 
negotiated from Mogadishu with these local fluid polities, 
whatever is found at the local level.
    It is going to be messy. It is going to be hybrid. It is 
going to be difficult for us to interface with at times, but 
the Somalis understand it full well and have learned to work 
within it over the past 20 years.
    Mr. Payne. Very good. Thank you very much. When I return, I 
would like to expand a little bit more and also hear from Ms. 
Ali Aden about some of those points that you mentioned, the two 
things that must stop, the toxicity and the fishing. Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman. Ms. Ali Aden, let me 
ask you a question if I could, and thank you for your very 
troubling and incisive testimony. The AMISOM mission of 5,200 
people mostly from Burundi and Rwanda, in your view is it 
enough? You spoke of the 1.5 million internally displaced 
persons. You quoted USAID about 3.5 million people in need of 
humanitarian aid, and obviously the security situation totally 
exacerbates that problem if not creates it in the first place, 
and the others might want to speak to this as well, whether or 
not that mission is sufficient.
    I remember when the first deployment of AU peacekeepers 
went to Sudan, I went over and met with them, and they were 
grossly underpaid, getting $1 a day. They were in very, very 
hostile situations. They had very poor rules of engagement, not 
their fault, but the fault of those who sent them, and I am 
just wondering if your sense is that this is a robust mission. 
Also, we found in DR Congo, and I actually chaired three 
hearings on it, with regards to peacekeepers committing 
atrocities against individuals, mostly women, mostly small, 
young girls in terms of rape, and in Goma it was a terrible and 
is a terrible situation.
    Has anti-human trafficking protections been integrated into 
the AU mission there, and anyone else who would like to speak 
to that as well?
    Ms. Ali Aden. Thank you. On the issue of AMISOM, if it is 
enough, has become obvious with the Somali community and how 
the Somali society sees as foreign intervention. Some would say 
that the AMISOM is not needed in Somalia, but because of the 
way the conditions are in Somalia, there has to be some sort of 
elements or troops like AMISOM that can keep the peace, but 
there is no peace to keep, so peace has to be established 
first.
    What the Somalis always talked about, and we have argued 
consistently on different forums is that perhaps the 
international community, especially the United States should 
consider bringing in forces that are coming from surrounding 
nations rather than just the neighboring countries and avoiding 
the front-line states such as Ethiopia, Kenya and now Uganda. 
As far as the capacity is concerned, we don't believe AMISOM 
has the capacity to do the work.
    They are not underpaid. They get paid much better than the 
Somali soldiers that have been trained in Uganda and now that 
are coming back with no pay and selling their guns, so perhaps 
reducing the numbers from 5,000 in a smaller pace and bringing 
in Somali soldiers and paying the Somali solder from some of 
that salary would do a better job for Somalia on security. As 
for AMISOM, now there are unconfirmed reports that it has 
established a prison in this compound that keeps closed not 
only from the international community, but also from the Somali 
Government. There has to be a mandate that clearly states that 
law has to be respected and civilians have to be protected.
    Mr. Smith. I am going to have to run over to vote, I guess 
you too, Mr. Chairman. I would like to hear whether or not 
there is a protocol to combat human trafficking to make sure 
that women and children especially are not exploited.
    Mr. Payne. You can go ahead.
    Mr. Smith. You are going to stay?
    Mr. Payne. Yes. You can answer that.
    Ms. Ali Aden. Human trafficking?
    Mr. Payne. Yes.
    Ms. Ali Aden. Well, there is a more of a child soldier than 
trafficking. There is some that exist, but it is more with the 
women, especially from the refugee camps surrounding Dadaab, 
and there have been reports that it has been talking about that 
not only inside Somalia and refugee camps but also where the 
Somalis have sought refuge such as in Kenya and in Dubai where 
Somali women are being sold as sex slaves.
    Mr. Payne. Now, once again in regard to the military, what 
is your opinion as it relates to the African Union's forces as 
opposed to Somali-trained forces who have been trained in Kenya 
and other places? If you were in charge, how would you fit that 
group in?
    Ms. Ali Aden. As far as the Somali soldiers that have been 
trained are concerned, like I say, when they come back, there 
is no salary for them, and there is no food, so the only 
alternative that they have is having a soldier that has been 
trained and who has a gun in his hand either join the 
insurgence or sell his gun to gain food for his family. A 
better way to go about it would have been to train these 
soldiers inside Somalia so they become familiar not only with 
their colleagues that they are working with, but with their 
superiors because when they come back, the superiors have been 
trained outside so the soldiers and superiors don't have a 
relationship, and when they come back, there is no respect 
between the two.
    Training the soldiers inside Somalia, offering them a 
salary that can sustain them and their families will help them 
and keep them away from joining the insurgents and thinking 
more of a nationalist rather than always supporting their clan, 
and that will only come if they are recruited on the base of 
their capacity, their knowledge, their previous experience and 
their health. Instead, they are being recruited when they are 
being taken to these different countries based on the clan of 
who recruiting these soldiers to be trained.
    Mr. Payne. And, Dr. Menkhaus, what is your opinion on the 
soldiers, the military element?
    Mr. Menkhaus. First with regard to the African Union, the 
AMISOM forces, I think our first observation has to be that 
their mandate is to protect the Transitional Federal Government 
first and foremost. Their relations with the Transitional 
Federal Government are very poor. There is no trust on either 
side between the two, and as a result, the AMISOM forces are 
deeply frustrated. They would like to expand their mandate to 
be able to work with other entities like Al-Sunna wa al-Jama'a 
in taking the fight to Shabaab. I am deeply concerned about 
that.
    As someone who served in UNOSOM, I know even 30,000 plus of 
the world's best peacekeepers confronted with a sustained urban 
guerrilla war are not going to be able to succeed in Somalia. I 
think in the long run Shabaab is going to see its demise, not 
from military defeat, but from being eroded from beneath, and I 
think that is first and foremost a Somali task, not an AMISOM 
task. Moreover, AMISOM has been responding to Shabaab shellings 
by returning fire in densely populated neighborhoods. That 
results in extensive civilian casualties which is precisely 
what Shabaab wants.
    It has infuriated Somalis against AMISOM, and as a result, 
that is just exacerbated the general feeling of anti-foreign 
sentiment among the population in Mogadishu. The problem with 
bringing Somali militia in as security forces is not only that 
they haven't been paid, but the money has been made available, 
but because of corruption, TFG officials are taking that money, 
and as a result, up to 75 percent of the TFG security forces 
who have been trained by outsiders have in fact either deserted 
or defected.
    I would add a final point, and this is a potential game 
changer. If AMISOM were to withdraw, which is another scenario, 
not necessarily to expand, but to withdraw due to frustration 
and Uganda and elsewhere, the Transitional Federal Government 
would not be able to protect itself at all. It would almost 
certainly have to flee the country, so it would be a game-
ending change.
    Mr. Payne. Okay. Thank you. The hearing will stand 
recessed. Thank you.
    [Whereupon, the subcommittee recessed.]
    Mr. Payne. The hearing will reconvene. I thank those of you 
in the audience who could stay and thank the witnesses for 
remaining with us. Let me ask you, Mr. Dagne, the situation in 
the Ogaden region of Ethiopia is deeply concerning, troubling 
as you have already mentioned considering reports of sexual 
violence perpetrated by Ethiopian troops and the effective 
isolation of the region imposed by the Ethiopian Government.
    Since the government suspended food aid to Ogaden in 2006, 
it seems the humanitarian situation has continued to 
deteriorate, yet very little has been done by the international 
community to pressure the Ethiopian Government to peacefully 
resolve the issue in the Ogaden. In your opinion, why has so 
little been done to engage the Ethiopian Government on this 
issue, and given that the Ogaden region is cut off from contact 
with outside entities and access to the region, it is highly 
restricted, from what sources are we able to collect 
information on the status and the condition of the inhabitants 
in the Ogaden?
    Mr. Dagne. I think most of the information that we are 
getting about the Ogaden comes from the refugees near the 
border in Kenya. There are also human rights groups, 
journalists who have gone into the Ogaden without the 
permission of the Ethiopian Government, and they have 
documented what they have seen, interviews of the victims. I 
have gone at least three times in the past couple of years. I 
went into the refugee camps and in Nairobi and documented a 
number of interviews of the victims as well as conditions 
internally.
    What is different about the Ogaden is that rarely you will 
see reporting about the atrocities that are being committed. 
The targeting in the Ogaden is exclusively against civilians, 
especially women. Rape is one of the methods used by the 
Ethiopian security as well as hanging. We have a number of 
cases of individuals who were handed. One particular person 
that comes to mind that you and I had met 2 years ago and last 
year is a young lady named Redwan. She was hanged by the 
Ethiopian security, left for dead. Fortunately, for her, she 
wasn't dead, and she was helped out, moved into a neighboring 
country, and she is still awaiting for the United Nation's 
Refugee Agency to process her status.
    Mr. Payne. Thank you. Let me ask you, Ms. Lefkow, the 
Ethiopian judiciary has been under severe criticism for years 
by some observers and opposition groups for allegedly lacking 
independence and effectiveness. Do you agree with this 
assessment and criticism, and what are the major problems 
facing Ethiopia's judiciary? What can, in your opinion, the 
U.S. do to help strengthen the independence of the judiciary in 
Ethiopia?
    Ms. Lefkow. I would be happy to try and address that. May I 
also add a couple of points with regard to your question on the 
Ogaden area?
    Mr. Payne. Yes.
    Ms. Lefkow. Maybe if I start with that? The allegations of 
abuses in the Ogaden is an issue that Humans Rights Watch has 
been extremely concerned about over the last 3 years. We did a 
very in-depth investigation in 2007 into these allegations and 
documented crimes that we in our assessment amounted to war 
crimes and crimes against humanity, so these are very, very 
serious crimes by the Ethiopian military, to some extent also 
by the Ogaden National Liberation Front. They are not clean. 
Their record is not entirely clean either. I think it is 
important to say that clearly, but the scale of the abuses 
against civilians was overwhelmingly for the most part on the 
part of the Ethiopian military.
    In our assessment, the patterns of crime declines somewhat 
in 2007, 2008 after the initial campaign by the government. We 
have actually been doing another set of research just in the 
last few months on what is happening in the Ogaden trying to 
get an updated picture of what is happening on the ground 
because as you know, it is extremely difficult to get solid and 
credible information, and we are very concerned about some 
ongoing military clashes in the region and ongoing targeting of 
civilians.
    I think there are two new elements that we are seeing in 
the region. One is that the regional government in Somali 
region has established like almost a paramilitary force called 
the New Police, and it is these forces that seem to be 
responsible for a lot of abuses against civilians now, so this 
is a new development since 2008. The other I think new element 
in the Ogaden area is a real expansion of oil development.
    We were hearing this from dozens of people we spoke to just 
last month of an expansion of the oil exploration in the area, 
which is having kind of a knock-on effect because this is a 
conflict zone, and a lot of people are pastoralists, nomadic 
herders, and they are actually not able to go to their 
traditional lands anymore because the oil companies with 
Ethiopian military support have actually seemingly fenced off 
large areas, so this is a kind of new dynamic that we are 
seeing, which I think will have some serious effects on the 
ground and on civilians, and I may just quickly----
    Mr. Payne. And on that point, is there the presence of the 
People's Republic of China's military there or security forces 
armed from China since it is PetroChina that is doing the 
exploration in the Ogaden?
    Ms. Lefkow. Not that we are aware of. The security forces 
for the oil seems to be primarily Ethiopian military, so the 
national defense forces. Although, there are also----
    Mr. Payne. Okay. I know that several years ago there was a 
conflict with the OLF, and I think a number of Chinese security 
forces were killed in a combat with OLF and Chinese military or 
paramilitary or security, and you can go on.
    Ms. Lefkow. Thank you. The other issue I wanted to mention, 
I mean, I guess it is in relation to the Ogaden. I think there 
is a couple of points worth making. I think with regard to the 
U.S. policy, I think there is a positive and negative side to 
the U.S. positioning, the government positioning on Ogaden. On 
the one hand, I think the U.S. has been pressing quite hard for 
humanitarian access over the last few years. I think there is a 
recognition that the humanitarian situation in the Ogaden area 
has been very, very serious and continues to be very serious, 
and I think that is an important positive position.
    I think the problem is that there hasn't been enough push 
back on the fact that the Ethiopian Government has essentially 
closed down this region to any kind of independent access. 
Journalists can't get in there, diplomats can't get in there. 
We certainly can't get in there. They have effectively 
established an information blackout on the Ogaden area, and I 
think there needs to be much greater challenging of this by the 
U.S. and by other of Ethiopia's partners.
    I think on that score, what we see, the National Security 
Council statement after the elections last month was an 
important signal it seems of a shift in U.S. rhetoric toward 
Ethiopia. It think it was a strong statement. It was a welcomed 
statement of concern about the electoral process, but what we 
need to see is those words matched by action and to see the 
apparent greater concern for the human rights situation 
translate into real policy consequences for Ethiopia if it does 
not shift course.
    Mr. Payne. Thank you very much. Just finally, Mr. Amum 
Okiech, could you explain to us the relevance of the change and 
the split in the energy portfolio by President Bashir into 
three, separating oil, mining and electricity recently, and has 
the cooperation of the NCP changed or improved after the 
national election and the recent appointment of the new 
cabinet? You can give me your assessment of the new appointees 
in the North and as I mentioned, the splitting of the energy 
portfolio. Do you think this has something to do with the 
upcoming referendum on January 9, 2011?
    Mr. Amum Okiech. Thank you, Mr. Chairman. The decision to 
split the ministry of mining and energy into three separate 
ministries is driven by the consideration that possible outcome 
of the referendum may be secession of Southern Sudan where 
petroleum is largely produced in Southern Sudan, and it may be 
a ministry that may not be there after the referendum in 
Northern Sudan or possibly having very limited functions.
    In that case also, the National Congress Party has been 
investing in the center of Sudan, particularly in the northern 
parts of Sudan in building dams for the production of energy 
from hydroelectric power as well as also developing plans to 
develop agricultural irrigated schemes along the Nile, 
particularly in Northern Sudan. Now, this program of building 
hydroelectric power and dams in Northern Sudan has caused a 
very serious concern that would need attention by the 
international community and the Government of United States.
    The Nubian people, who are a marginalized people in the far 
north or Northern Sudan, are under attack and are in danger of 
extinction because the process of the constructions of the dams 
is being done without their consultation. Their villages and 
land is being submerged under water. Also, there is an 
intentional cultural genocide that is being carried out where 
the ancient civilization of the Nubian people is being 
destroyed and submerged under water. This is going to be a loss 
not only to the Sudanese people, not to the Nubian people; this 
is a human patrimony that need to be protected.
    Also, the land of the Nubian people is being usurped from 
them. They are being displaced and being sent to inhospitable 
areas without compensation, and actually tomorrow here in 
Washington there is going to be a memorial by the Nubian people 
to remember the victims who have been killed by the Sudanese 
authorities resisting to defend their land from being usurped 
in the process of building dams, so the ministry of energy is a 
ministry that is going to focus in development of energy, 
particularly hydroelectric energy, and building of dams.
    Why the mining, the third ministry, is being separated was 
the aim of development of mineral resources, particularly in 
eastern Sudan, especially gold, and the people of eastern Sudan 
are marginalized, are excluded from these processes. There land 
is being taken. Their resources are being used, and revenues 
from the exploitation of the mineral resources in eastern Sudan 
are not being brought to benefit the marginalized people of 
eastern Sudan, particularly the very people whose land these 
resources are found.
    Again, there is also an issue of concentration of the 
opportunities of development in the center and exploitation of 
resources of the marginalized areas like the far north or the 
east in the benefit of the ruling elites in Khartoum to the 
total marginalization and exclusion of the people of eastern 
Sudan, particularly the Bija, so the petroleum ministry now has 
been assigned or has been located to the SPLM, and an SPLM 
minister would be developing this portfolio. I believe the main 
important task would be to bring in transparency in how the oil 
sector has been developed and managed.
    There has been a serious lack of transparency. The National 
Congress has developed this sector exclusively and in a very 
controlled-type process excluding the Government of Southern 
Sudan from participating in the management of the oil sector 
whether in the development of the production in the fields or 
in the management of its transport and processing as well as in 
the auction and sale of the Sudanese petroleum. The reports, 
including of international and independent organization like 
Global Witness indicate that Southern Sudan has been cheated 
for up to nearly 26 percent of its share, which is giving 
Southern Sudan less than half of its deserved rights, and this 
is a serious issue.
    With the formation of the government of national unity or 
the Government of Sudan in Khartoum, definitely there is 
cooperation. The SPLM has been allocated 30 percent of the 
total portfolios representing Southern Sudan having been the 
party that has won election in the south while the remaining 70 
percent is occupied by the National Congress Party and other 
parties associated with it or allied to the National Congress 
Party. We are desirous to develop better relations with the 
National Congress as we manage the transition of our country 
through the remaining short period of the interim period 
possibly to emerge as two independent states.
    It is only through dialogue and serious discussions that 
the parties are required to have that we will be able to avoid 
a return to war and avoid a collapse of real peace but achieve 
a transition to permanent peace even if that would mean 
establishment of appeals of two states. Thank you, sir.
    Mr. Payne. Thank you very much. At this time, before I turn 
over to the ranking member, let me recognize in the audience 
the Honorable Asha Abdalla, chairperson of the Somali's Women's 
Parliamentary Association. Would you stand please and be 
recognized? Thank you. We are very pleased to have you with us 
here. Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman. Ms. Ali Aden and Mr. 
Menkhaus, could you tell us do you believe that the United 
States is doing enough with regards to Somalia? Resources, 
policy-wise and the like, Ms. Ali Aden?
    Ms. Ali Aden. Thank you. First of all, as a student who is 
trained in medicine, I have always learned the importance of 
history, knowing the history of the patient in order to treat 
the patient. I believe our Government, United States 
Government, whether it is this one or the previous ones truly 
missed the opportunity to study the history of the conflict and 
all the contributors of that conflict. When Ethiopia invaded 
Somalia back in 2006, we have consistently spoken to the State 
Department discouraging that support should not be given to the 
invasion, and of course we thought that policy was an ill-
advised foreign policy.
    That was not going to work, and we found out the results. 
It created more radicals in Somalia and in the region, and 
everybody else who was involved since that was the worst 
decision the United States has ever made to support Ethiopia. 
Now, coming back, if the current administration is doing 
enough, I would say no, and the reason I say that is because 
the U.S. administration is depending always on neighboring 
countries to understand Somalia and to find a cure to the 
disease that lies on land. We see 150 ships are in the seas 
outside Somalia, all trying to stop the piracy, when in fact 
the piracy is the symptom. It is not the disease.
    The disease lies on land, and that is to find political 
stability in Somalia. Therefore, what the United States 
Government should do is instead of depending on the 
intelligence collected by the Ethiopian Government, Kenyan or 
Ugandese to actually do things in their own way and engage the 
Somali people, especially the Diaspora. There is a huge force 
of Somali Diaspora sitting outside Somalia, some in neighboring 
countries.
    Somalis in the Diaspora send every year what we know 
documented by the UNDP, $1.5 billion to Somalia, and that is 
only how much we know. They sustain Somalia plus the resilience 
of those inside, so what the U.S. needs to do is to empower 
what existed because I don't believe in anarchy, and most of us 
who advocate for change believed to build on what existed. Let 
us not make the same mistake that we made with the Islamic 
Courts when we destroyed them because we had opportunity there 
to build on them.
    There are safe regions in Somalia, in the northwest, 
northeast. Let us have reconciliations supported by United 
States Government and allies and hold a serious and genuine 
reconciliation that is holistic that includes all the 
stakeholders and hold inside Somalia, the safe areas, and most 
of us have been proposing lately in different forums to have 
the next reconciliation, which is the last, the most holistic, 
hopefully the most productive and the only one that is needed 
from here on forward held in Hargeysa. Why take it outside? The 
people in the northeast and northwest need the funds that we 
spend outside trying to reconcile these people.
    Also, the 4.5 formula, the clan formula system is not 
working. It is a formula that has become the worst obstacle and 
impediment to peace process in Somalia because these people 
selected are loyal to the clan and not to the nation. We should 
elect people based on their capacity, capabilities and previous 
experience and inject the Diaspora into the government. We have 
few right now in the government who left from the Diaspora, but 
it is like a drop in the sea. We need to have more, maybe flood 
more of the Diaspora into the government and hopefully create 
the change that we need with the help of the nationalities like 
the American citizens who went there.
    Mr. Menkhaus. In my view, I think we are not doing enough 
on several levels, first on humanitarian relief. Somalia is the 
site of the worst humanitarian crisis in the world. 
Historically the United States Government has been extremely 
generous. It is been a leader in the provision of humanitarian 
assistance to those in need, but because of the suspension of 
food aid, there is a debate right now as to why WFP and others 
have suspended their activities in south central Somalia.
    On the one hand, it is because of insecurity from Shabaab 
and other groups. On the other hand, it is because of concerns 
about the Patriot Act and OFAC and the liability that Americans 
and organizations might have if substantial benefits accrue to 
a terrorist organization from our assistance. We need to grant 
a waiver to those organizations. For organizations working in 
areas controlled by Hamas and Hezbollah, that would be not only 
an important way to remove one of the hurdles to resumption of 
humanitarian aid, we would also put all of the burden on 
Shabaab when Somalis ask the question, ``Where is the 
assistance?'' Somalia is in huge trouble now. It is the hungry 
season, there is no food aid, and we need to make sure that 
they understand exactly who the obstacle is. It is not us. It 
is not the Treasury Department. It is Shabaab. I think that we 
can do that without guarantees that the aid will not 
substantially benefit Shabaab. I think it is low-handing fruit 
for us.
    Politically, another set of low-hanging fruit is 
engagement. We do not have enough people in our embassy in 
Nairobi engaging on Somalia. The State Department will be the 
first to tell you, and USAID as well, we need a full-court 
press of engagement across every spectrum of society. Right 
now, we have very limited opportunities to dialogue with 
Somalis in civil society, in business and politics and 
religion.
    We are actually losing a public relations battle with 
Shabaab, which is doing outrageous things in the country, such 
as banning the viewing of world cup soccer matches. How that is 
possible, I don't know. We need to be able to take control of 
the narrative. There is so much that we are doing that is 
positive. There is so much that Somalis do like about the 
United States, and I think one of the things that we can do 
much more is people to people development and diplomacy.
    That is one of our great strengths around the world, the 
amount of foreign assistance that isn't necessarily official. 
It is unofficial, sister city programs. All kinds of 
opportunities are out there for the American people to engage 
with Somalis so that they start again to see us as they once 
did, which is the land of opportunity and a source of freedom 
and development.
    Mr. Smith. Thank you so much. Because we are running out of 
time, I have a number of questions, but we have another set of 
votes. On Eritrea, the International Religious Freedom Act 
designation of country of particular concern, again Eritrea has 
been named a CPC country. This week, Eritrea became a Tier 3 
country on its violations of human trafficking and particularly 
as it related to labor trafficking.
    A number of important recommendations have been made by the 
U.S. Commission on International and Religious Freedom about 
going beyond the 2005 actions, which was just to prevent the 
sale of defense articles to Eritrea, including, and I think one 
of the best targeted sanctions against individuals and 
institutions identified as responsible for or complicit in 
serious human rights abuses. I was wondering either now or for 
the record if any of you had any specific thoughts?
    It would seem to me two terrible designations, CPC and Tier 
3, religious freedom, human trafficking and all the other 
problems Eritrea has. We need to take it a new level I would 
think, but what is your view? Ted?
    Mr. Dagne. I think it is important to put this in proper 
context. One, I do think that putting Eritrea along the line of 
Saudi Arabia and Sudan in terms of religious discrimination in 
my view is way off target. The major religions, including 
Christians, Muslims and the minorities, Jews coexist peacefully 
for centuries, and yes, there has been a problem registering 
the evangelicals in particular in Eritrea, but to make the 
conclusion that across the board there is religious 
discrimination I think is in my view wrong and cannot be 
factually supporting.
    I have read the International Religious Commission report. 
I met with them a week ago, and I asked the last time they went 
there to investigate this. It was 2004, so while there are 
problems in registering some religious groups, I think it is 
important that this issue is put in proper context.
    Mr. Smith. But with all due respect, is it your testimony 
that forced recantations of faith and torture of believers is 
not happening or not happening to the degree? I mean, if they 
asked to go tomorrow, would they be allowed to go and visit 
with the religious prisoners? I am talking about either State 
Department or the United States Commission on International 
Religious Freedom because both bodies, independent and 
separate, our own State Department and this independent 
commission, have come to the identical conclusions, which are 
contrary to yours.
    Mr. Dagne. My investigation, my research, and I have been 
to Eritrea more so than those who had claimed to have been 
there to do this report is that yes, there are people who we 
have been detained and arrested by the Eritreans, but I have 
not witnessed, heard or saw any credible evidence to show me 
that the religious leaders have been tortured. There have been 
a number of releases of religious individuals who have been 
arrested for one reason or another, some of whom have been 
arrested for refusing to serve in the national service.
    Some have been arrested for meeting according the 
government rules and regulations illegally, but I am not here 
to say that there are now discrimination, there are no arrests, 
yes. Have there been deliberate delays and denials of 
registration of religious groups? But what I am stating for the 
record is that this has to be put in the proper context that 
Eritrea does not deliberately discriminate or penalize its 
religious leaders or followers.
    Mr. Smith. Ms. Lefkow, do you agree with that?
    Ms. Lefkow. I do, and I don't. I mean, I think we have 
documented some very serious human rights abuses in Eritrea, 
including on the score of denial of freedom of religion to 
various groups including Pentecostals and Jehovah's witnesses, 
and I think we are extremely concerned about the human rights 
situation, actually. There is no question that it is a society 
that has become increasingly militarized where military service 
and conscription, for example, continues indefinitely.
    This is generating an outflux of refugees from Eritrea that 
has grown substantially in the last couple of years, and I 
think this is always a good indicator of things going very 
wrong at home when you have these kind of increased migration 
flows, but I think where I would agree with my colleague is 
there is another dimension to Eritrea's human rights crisis.
    It is also very much part of the regional picture, and I 
think the one thing that the United States has to be incredibly 
cautious about is having a balanced and principled approach to 
the region because I think that the appearance of imbalance and 
of partisan backing to forces that commit abuses as has been 
referred to already, for example, supporting or being perceived 
to support the Ethiopian military when it commits abuses, being 
perceived to support the TFG when it commits abused, being 
perceived to support AMISOM when it indiscriminately shells 
civilians in Mogadishu.
    I think this is very much contrary to the interests of the 
United States to have this perception circulating, and I think 
that is why it needs to be extraordinarily careful about how it 
handles the situation with Eritrea because to be seen as 
zealously anti-Eritrea and not taking a balanced approach to 
the very serious human rights abused that the Ethiopian 
Government is committing I think is not the interest of this 
government in this country.
    Mr. Smith. I would agree. I mean, we have raised when it 
was under the Bush administration, and I actually did the 
Ethiopia Human Rights Act. Mr. Payne, our chairman, did it the 
following 2 years later, and we were very discouraged by our 
Government through both administration's response, but with 
Eritrea, it seems to me that we are trying to stand in 
solidarity with those who are in prison, and I would love it if 
the U.S. Commission for International Religious Freedom could 
visit and have access to prisoners. I doubt that they can, but 
I will follow up on that.
    Finally, and this would be for the record because we are 
out of time, but, Ms. Ali Aden, you talked about the toxic 
waste and radiological, and Eni Faleomavaega on this committee 
has been absolutely dogged in reminding us year in and year out 
that the French detonated so many atomic weapons which have had 
a disproportionate, horrific impact on the ecosystems and the 
lives of people living in the South Pacific, and now it would 
appear there is a kind of deja vu here with regards to toxic 
dumping.
    I wonder if for the record or briefly now but certainly for 
the record because Nick Nuttall of the U.N. Environmental 
Program has raised this. He did it during the tsunami when he 
said people were getting sick because of this stuff washing up 
on shore. Could you provide a more detailed record and anyone 
else who would like to on this toxic dumping of radiological 
and mercury and all the other terrible things that do grave 
injury to people?
    Ms. Ali Aden. Also included in my testimony, written 
statement, the information that I put in there is what is out 
there so far because it seems the international community is 
busy with the piracy, and like I say, it is a symptom, so for 
the past 15 years or so, toxic waste dumping has been taking 
place in the Somali Sea, most of it coming from the European 
countries and Asian countries.
    Mr. Smith. Do you have any names of companies that might be 
doing that?
    Ms. Ali Aden. There are no names that have been publicly 
announced, but there has been certain countries in Europe, and 
there are some in Asia, so I would not want to go ahead of the 
game when this hearing was not just about these countries, but 
I would love to have a hearing where really the whole issue is 
dominated by the toxic waste dumping in Somalia because what 
you have is a ticking environmental bomb. If things even work 
out in Somalia, we don't know what is going to happen on the 
next tsunami or if anything else goes wrong.
    I cannot name particular countries, but we know 
consistently European countries and Asians have been named even 
by the U.N. agencies and also the former U.N. Envoy, Ould-
Abdallah, has also mentioned that.
    Mr. Payne. Let me thank you all very much. I think we are 
on the court on most of these issues. However, I don't want you 
to say I said something behind your back after you left, but 
let me also talk about the conscription in Eritrea now. It is 
wrong, and they say you must join the military. However, as you 
may recall, when I was coming up, I had to also by law go into 
the military, and if I didn't, I could be imprisoned or not 
allowed to have student aid.
    Many in the United States of America left the country and 
went to Canada if they did not want to go into the military. I 
am not condoning it. I am just simply saying, and I think your 
point was good about on balance on the religions. I visited 
religious places in Eritrea myself and saw the Jewish, the 
Catholic, the Protestants and so forth. There is no question 
that there has been a restriction on the registration of new 
religions, including some of the Evangelicals, and we discussed 
that.
    The other thing too we were able through negotiations on a 
trip that I had with Mr. Dagne many years ago after 
consultation with the leadership of Eritrea that a number of 
prisoners were released after we had dialogue with the 
President and his cabinet people, and so I think that dialogue 
is much more important than a hammer. To try to exclude and cut 
Eritrea off and have no dialogue I think gains us nothing.
    I do think that as long as there is some opportunity to 
have dialogue, I would not like to see them put on a state 
sponsor of terrorism with North Korea and Iran. Eritrea is not, 
in my opinion, a North Korea or Iran. With 5 million people, I 
am not sure they can bring the world down, but we need to try 
to get them to understand that there must be more cooperation. 
Mr. Dagne?
    Mr. Dagne. Just for the record, Chairman Payne, the 
national service in Eritrea is a service for everyone across 
the board for less than 2 years, and it is not entirely 
military training. You are not recruited into the military. The 
1 year actually is studying for your twelfth grade, and it is 
about 6 months where they will be getting military training, 
and no one, including the President's son, actually had gone 
through that, the son of the defense minister. Everyone had to 
do that service the same way they do it in Israel and in other 
countries.
    Mr. Payne. Thank you.
    Ms. Lefkow. Sorry. I just want to clarify for the record, 
and our objection at Human Rights Watch is not toward 
conscription per se, not at all.
    Mr. Payne. Okay.
    Ms. Lefkow. Our concern with Eritrea is the indefinite 
nature because we have found that in many, many cases the 2 
years ends up actually being many, many years and sometimes 
indefinite service in Eritrea, so that is the concern.
    Mr. Payne. Thank you. All right. I do hope we can revisit 
Somalia. As you know, I went to Mogadishu and had an excellent 
day there on the ground and met with women's groups and 
education groups and 30 different women's groups at one time, 
educators and so forth, and I think that there is a great 
opportunity. I think we are not maximizing it. Of course, I had 
an unpleasant experience on the way out because it was so 
positive.
    The press conference was so positive about my wanting 
Americans to come back. I was the first American to go there 
maybe in a dozen years or so. Al-Shabaab shot missiles at my 
plane on the way out, however. Fortunately, they didn't 
succeed, but I think it was desperation because they don't want 
people to come in because they thrive when others stay out, so 
I hope that we can have enough security so that we can get the 
EU and other Americans to go into work with the fledgling 
government.
    Now since I must get over to vote again, but there was one 
thing I wanted Mr. Smith to hear, but I am sure that staff can 
relay it to him that we looked at the language in the 
Constitution, and the draft Constitution of Kenya says that 
abortion is not permitted unless in the opinion of a trained 
health professional there is a good need for emergency 
treatment or the life of the health of the mother is in danger, 
so to say that the new Constitution will allow abortion on 
demand is totally incorrect.
    It does not say that, and people continue to say that, but 
it is not correct. Abortion is illegal in Kenya. This reaffirms 
the current Kenya penal code. It does not change the penal 
code, and that outsiders are going in and reinterpreting what 
it says. It says that abortion is not permitted unless in the 
opinion of a trained health professional there is a need for 
emergency treatment or the life or the health of the mother is 
in danger, period.
    With that, I will ask unanimous consent that members have 5 
legislative days to revise and extend their remarks. Without 
objection, it is so ordered. Let me once again thank the 
witnesses. We could be here all day, and if there were not 
votes, we would be here all day, but thank you all. You were an 
excellent panel, and thank you those in the audience. Thank 
you. The meeting is adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
